                               U.S. SMALL BUSINESS ADMINISTRATION
                                  OFFICE OF INSPECTOR GENERAL
                                      WASHINGTON, D.C. 20416




                    Oversight Framework for the American Recovery and
                           Reinvestment Act of 2009 (P.L. 111-5)

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provides for reduced loan fees,
higher guaranties, new SBA credit programs, secondary market incentives, and enhancements to
current SBA programs to help unlock credit markets and begin economic recovery for the nation’s
small business sector. In order to provide unprecedented levels of transparency and accountability, the
Recovery Act and related Office of Management and Budget (OMB) guidance require increased
financial reporting on, and oversight of, programs, grants, and projects funded under the Act to deter
and detect fraud, waste and abuse, and ensure that program goals are met.

To meet its oversight responsibilities under the Recovery Act, the OIG is developing oversight plans
for deploying additional resources to provide “real-time” monitoring, evaluation, and reporting of
SBA’s implementation of the Act. Since the Act provides very short time frames for obligating funds,
there will be significant pressure on SBA to expedite and maximize financial assistance to small
businesses. Past experience, such as SBA’s response to the 9-11 terrorist attacks and the 2005 Gulf
Coast hurricanes, has shown that this pressure can significantly increase the vulnerability of SBA’s
programs to fraud and unnecessary losses. Therefore, the OIG’s oversight efforts will focus heavily on
assessing controls and detecting and deterring fraud, waste and abuse in Recovery Act programs. The
OIG’s oversight plans will include both immediate and longer-term actions.

Immediate OIG Recovery Oversight Actions:

  • Establish internal OIG recovery oversight teams and processes, including reporting and cost
    tracking procedures, as well as an OIG recovery oversight website.
  • Meet with responsible agency officials and establish regular meetings and other communication
    processes to monitor and provide recommendations on development of agency Recovery Act
    actions before they are implemented.
  • Review all agency proposed controls (regulations, operating procedures, notices, etc.) relating to
    Recovery Act initiatives prior to issuance and provide recommendations to reduce potential
    waste, fraud, abuse and inefficiencies.
  • Review and provide recommendations on agency risk mitigation planning activities.
  • Review unimplemented audit recommendations and provide the agency with recommendations
    on unresolved internal control weaknesses that may affect Recovery Act initiatives.
  • Identify key fraud indicators that may increase potential losses in Recovery Act programs and
    issue a written notice to agency employees and loan program participants.
  • Contact trade associations and other outside entities to conduct fraud outreach efforts and identify
    potential oversight activities.
  • Issue solicitation and job announcements to obtain contracting and temporary personnel to
    conduct recovery oversight activities.
  • Prepare a detailed audit work plan for recovery oversight activities.
                                                   1                                          3/11/2009
  Longer-term OIG Recovery Oversight Actions:

  The table below summarizes potential risks related to SBA’s implementation of the Recovery Act and
  provides a framework for potential additional OIG activities to address these risks.

   Risks Associated With The Recovery Act (RA)                        Potential OIG Activities
RA Section 501 – Fee Reductions: Elimination or           •    Conduct periodic “real-time” reviews and
reduction of borrower fees in the 7(a) and 504 loan            performance reporting in the following areas:
programs.
                                                              ¾ SBA and lender underwriting and closing of
RA Section 502 – Economic Stimulus Lending                      loans under the 7(a) and 504 programs
Program for Small Businesses: 90 percent guaranty for           (including refinancing and expansion loans).
qualifying small business loans made by eligible
lenders.                                                      ¾ SBA’s purchase decisions and oversight of
                                                                CDC and lender liquidation of 7(a) and 504
RA Section 504-Stimulus For Community                           loans to determine if appropriate efforts are
Development Lending: Loans under the 504 Program                being made to prevent improper payments
for debt refinancing and borrower expansion.                    on defaulted loans and recover liquidated
                                                                collateral.
Risks:
                                                              ¾ Early default 7(a) loans to determine quality
   Lenders will have greatly reduced risk on the loans          of underwriting.
   and may not diligently underwrite loans,
   investigate fraud indicators at loan origination, or
   exert sufficient effort to liquidate and collect       •    Review SBA’s management and oversight of
   outstanding debt on defaulted loans. Result:                appropriated funds and lending activity.
   greater potential for losses and fraud.                •    Expand the scope of the financial statement
                                                               audit to address the change from a zero-
• Increased risk of improper payments (guaranty
                                                               subsidy to a fully subsidized program and to
  purchases) stemming from higher loan activities
                                                               incorporate new loan programs.
  and resource constraints.
                                                          •    Identify areas most susceptible to fraud, issue
• Improper 504 refinancing and expansion loans
                                                               preventative guidance, and conduct criminal
  could lead to government losses.
                                                               investigations of loan program participants.
• SBA’s oversight processes may not effectively
  identify red flags in loan applications given the
  public pressure to expedite lending, leading to
  increased losses.
• In the past, SBA has run out of money in operating
  subsidy-based financial assistance programs,
  leading to caps on, or interruptions in, lending.
  Also, subsidy model re-estimates and modifications
  could result in cost overruns in new loan programs.




                                                      2                                           3/11/2009
  Risks Associated With The Recovery Act (RA)                           Potential OIG Activities
RA Section 503 – Secondary Market Guaranty                  •   Conduct OIG reviews of the following areas:
Authority for 504 Loans: New program allowing SBA
to issue guaranties for the sale of first lien position         ¾ SBA regulations and operating procedures
loans under the 504 program and to develop a                      to identify control weaknesses.
secondary market for the purchase of these loans or             ¾ Sales of 504 first-lien position pools to
pools of loans.                                                   third- party investors.
Risks:                                                          ¾ SBA oversight of lenders, certified
• Since SBA is required to issue implementing                     development companies (CDCs) and other
  regulations on an expedited basis, it may not                   participants in the program.
  establish effective controls. Result: potential for       •   Expand the scope of the financial statement
  increased fraud and losses and programmatic                   audit.
  inefficiencies.
                                                            •   Identify areas most susceptible to fraud, issue
• SBA is greatly increasing its exposure by                     preventative guidance, and conduct criminal
  guaranteeing not only the 40-percent debenture it             investigations of loan program participants.
  normally guarantees, but also the 50-percent first
  lien position on 504 loans (increasing exposure
  from 40 percent to 90 percent of these financing
  packages). Result: potential losses.
• Lenders that hold first liens on 504 loans are
  expected to act prudently in underwriting and
  servicing their loans. The sale of these loans would
  allow lenders to avoid losses, thus reducing
  incentives for lenders to prudently underwrite their
  loans. Yet, under current regulations, SBA has no
  recourse against these lenders, unlike the remedies
  it can pursue with 7(a) lenders. Result: increased
  potential fraud and losses and less accountability.
• Subsidy model re-estimates and modifications
  could result in cost overruns in new loan programs.
                                                            •




RA Section 505 – Increasing Small Business                  •   Determine whether SBICs are appropriately
Investment: Increase of maximum leverage for Small              using the increased leverage and whether SBA
Business Investment Companies (SBICs).                          is conducting appropriate oversight.
Risks:
• Increased leverage increases the risk to SBA,
  particularly if SBA does not exercise adequate
  oversight.




                                                        3                                          3/11/2009
    Risks Associated With The Recovery Act (RA)                              Potential OIG Activities
RA Section 506 – Business Stabilization Program:                  • Assess program implementation, including:
New program allowing SBA to make 100-percent
guaranties on loans of up to $35,000 to viable small                 ¾ Reviews of program regulations, operating
business concerns that have qualifying small business                  procedures and other controls.
loans and are experiencing immediate financial                       ¾ Ongoing “real-time” reviews of
hardship.                                                              underwriting and closing of loans made
Risks                                                                  under the program.

• Lenders will have no risk exposure on the loans                    ¾ Ongoing “real-time” reviews of purchase
  and may not diligently underwrite loans,                             and liquidation processes to determine if
  investigate fraud indicators at loan origination, or                 SBA is appropriately recovering improper
  exert sufficient effort to liquidate and collect debt                payments and exercising adequate
  on defaulted loans leading to increased losses and                   oversight of lender liquidation of
  potential fraud.                                                     collateral.

• Lenders will be originating loans used to pay debts                ¾ Reviews of SBA’s oversight of lender
  owed to them, which may lead to a conflict in                        compliance with loan program
  interest.                                                            requirements.

• SBA’s oversight processes may not effectively               •      Expand the scope of the financial statement
  identify red flags in loan applications given the                  audit.
  public pressure to expedite lending, leading to             •      Identify areas most susceptible to fraud, issue
  increased losses.                                                  preventative guidance, and conduct criminal
•    Subsidy models re-estimates and modifications                   investigations of loan program participants.
    could result in cost overruns in new loan programs.
                                                              •




RA Title V – SBA Appropriations: Increased funding            •      Audit surety bond guarantee underwriting and
for Surety Bond Guaranty Programs; RA Section 508 –                  guarantee purchase review processes.
Surety Bonds: – Increased Guarantees.
Risks:
• Efforts to expedite surety bond assistance in order
  to stimulate the economy and the increase in levels
  of authorized surety bond guaranties increases the
  potential for losses and fraud.




                                                          4                                             3/11/2009
  Risks Associated With The Recovery Act (RA)                             Potential OIG Activities
RA Section 509 – SBA Secondary Market Lending              •      Assess program implementation, including:
Authority: New program allowing SBA to make loans
to SBA broker-dealers who operate in the secondary                ¾ Reviews of new program regulations and
market with no limit on the size of the loans.                      operating procedures to assess the
                                                                    adequacy of controls.
Risks:
                                                                  ¾ Real-time reviews of SBA underwriting
• Since this is an entirely new SBA program, and                    (repayment ability calculations), closing,
  since SBA is required to issue implementing                       servicing and liquidation of loans made
  regulations on an expedited basis, the Agency may                 under this program to determine if SBA is
  not establish effective controls or adequate                      diligently implementing these activities.
  underwriting criteria to determine borrower
  “repayment ability.” Result: Increased fraud and                ¾ Reviews of the use of loan proceeds by
  losses and programmatic inefficiencies.                           broker-dealers to determine if the money is
                                                                    being used for the required purposes.
• Allowing loans of unlimited size greatly increases
  the potential for losses.                                •      Review the award and management of any
                                                                  contracts issued by SBA for performance of
• SBA may not diligently enforce compliance with                  program functions.
  loan program requirements. Result: increased
  losses and lack of accountability.                       •      Identify areas most susceptible to fraud and
                                                                  conduct criminal investigations of loan
• Subsidy model re-estimates and modifications                    program participants, including broker
  could result in cost overruns in new loan programs.             dealers.
                                                               • Expand the scope of the financial statement
                                                                 audit.
                                                           •




RA Title V – SBA Appropriations – Microloan                •      Review SBA’s administration of these grants.
Program – Grants for Marketing, Management, and
Technical Assistance: $24 million for grants for           •      Assess whether required technical assistance
intermediary provision of marketing, management,                  is being provided to program participants.
and technical assistance to microloan borrowers.
Risks:
• Ineffective use of funds.
                                                           •




RA Title V – SBA Appropriations – Microloan                •      Review loan origination and closing to
Program-Direct Loans: $6 million for the cost of                  determine compliance with SBA program
direct loans, which SBA plans to leverage to make up              policies and procedures.
to $50 million in loans to microlenders.
                                                           •      Review adequacy of agency controls and
Risks:                                                            agency oversight.
• Losses if microlenders engage in poor underwriting
  practices.




                                                       5                                             3/11/2009
  Risks Associated With The Recovery Act (RA)                             Potential OIG Activities
RA Title V – SBA Appropriations – Information                   Review SBA’s efforts to develop and upgrade
Technology: $20 million for improving, streamlining,            IT systems related to loan programs and
and automating information technology systems                   financial reporting to ensure that schedule, cost
related to lender processes and lender oversight.               and performance risks are mitigated.
Risks:
Ineffective use of funds and mismanagement of the
system acquisition process may result in potential cost
overruns and schedule delays, and inability to deliver
needed system capabilities.
                                                            •




RA Title V – SBA Appropriations – Contracting.              •     Review SBA’s procurement efforts to ensure
Possible use of recovery funds to fund contracts for              that awards result in meaningful and
assistance in administering and overseeing programs               measurable outcomes and that funds are put to
established by the Act.                                           the best possible use.
Risks:
• Ineffective use of funds, cost increases, delays in
  the delivery of services, and inability to deliver
  needed services.

                                                            •




OMB Memorandum 09-10, Initial Implementation                •     Assess whether the Agency has developed
Guidance (Sections 1.5, 2.1- 2.13) – Agency Plans and             plans and reports in accordance with Recovery
Public Reporting. To meet the accountability and                  Act requirements and is timely in its
transparency objectives of the Recovery Act, OMB is               submissions to OMB.
requiring eight different levels of reporting on how
recovery funds will be applied and managed.                 •     Evaluate data quality controls to ensure
                                                                  reporting is complete and accurate.
Risks:
  •   Information reported may not be complete or
      accurate.




                                                        6                                             3/11/2009
  Risks Associated With The Recovery Act (RA)                        Potential OIG Activities
OMB Memorandum 09-10, Initial Implementation              •   Review whether SBA has adequate controls in
Guidance (Sections 4.1 – 4.16) – Budget Execution.            place to provide reasonable assurance that
Agencies must (a) create Treasury Appropriation               Recovery Act funds are properly controlled
Fund Symbols to record and report the execution of            and expended in accordance with applicable
their Recovery Act budgets, and (b) determine how to          requirements.
apply Recovery Act funds for fixed administrative
costs associated with existing activities that are funded
by prior appropriations.
Risks:
   •     Co-mingling of Recovery Act and non-
         Recovery Act funds, impacting transparency in
         financial reporting.
   •     Misuse of Recovery Act funds for fixed
         administrative support costs.




                                                     7                                          3/11/2009
